September 24, 2021

Matthew D. McGill
Direct: +1 202.887.3680
Fax: +1 202.530.9662
MMcGill@gibsondunn.com

VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Haaland, Secretary of the Interior, et al. v. Brackeen, et al., No. 21-376;
Cherokee Nation, et al. v. Brackeen, et al., No. 21-377;
Texas v. Haaland, Secretary of the Interior, et al., No. 21-378.

Dear Mr. Harris:
I am counsel of record for respondents Chad Everet Brackeen, Jennifer Kay
Brackeen, Altagracia Socorro Hernandez, Jason Clifford, Danielle Clifford, Frank Nicholas
Libretti, and Heather Lynn Libretti in the above-captioned matters. The petitions for writs of
certiorari in these cases were placed on the Court’s docket on September 8, 2021, and
responses to the petitions are currently due on October 8, 2021. Pursuant to Supreme Court
Rule 30.4, respondents respectfully request a 30-day extension of time, to and including
November 8, 2021 (November 7, 2021 is a Sunday), within which to file responses to the
petitions in the three above-captioned matters.
This extension is requested to allow adequate time to consider and, if necessary,
respond to briefs of amici curiae expected to be filed in these cases on or before October 8,
2021.
Thank you for your consideration of this request.
Respectfully submitted,
/s/ Matthew D. McGill
Matthew D. McGill
cc:

Brian H. Fletcher, Esq., counsel for petitioners in No. 21-376
Ian Heath Gershengorn, Esq., counsel for petitioners in No. 21-377
Judd Edward Stone II, Esq., counsel for petitioner in No. 21-378

